Report No. D-2009-057         February 27, 2009




 Controls Over Collections and Returned Checks
  at Defense Finance and Accounting Service,
            Indianapolis Operations
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DFAS                          Defense Finance and Accounting Service
DoD FMR                       DoD Financial Management Regulation
FRB                           Federal Reserve Bank
OBIS                          OnBase Information System
ODO                           Other Defense Organizations
PCC OTC                       Paper Check Conversion Over the Counter
QMD                           Quantitative Methods Directorate
RCB                           Returned Check and Bond System
TFM                           Treasury Financial Manual
USD(C)/DoD CFO                Under Secretary of Defense/DoD Chief Financial Officer
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704




                                                                                  February 27,2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                DoD CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE

SUBJECT: Controls Over Collections and Returned Checks at Defense Finance and Accounting
         Service, Indianapolis Operations (Report No. D-2009-057)

Weare providing this report for your information and use. We considered comments from the
Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer and the Director, Defense
Finance and Accounting Service when preparing the final report. The complete text of the
comments is in the Client Comments section of the report.

DoD Directive 7650.3 requires that all issues be resolved promptly. The Director, Defense
Finance and Accounting Service did not comment on potential monetary benefits. Therefore, we
request that the Director, Defense Finance and Accounting Service provide comments on potential
monetary benefits by March 27,2009.

If possible, please send management comments in electronic format (Adobe Acrobat file only)
 to AUDDBO@dodig.mil. Copies of the management comments must contain the actual signature
of the authorizing official. We cannot accept the / Signed / symbol in place of the actual signature.
If you arrange to send classified comments electronically, they must be sent over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Questions should be directed to me at
(703) 601-5868.




                                             ~a.!J1Jv
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
                 Report No. D-2009-057 (Project No. D2007-D000FL-0119.001)
                                     February 27, 2009

               Results in Brief: Controls Over
               Collections and Returned Checks at
               Defense Finance and Accounting
               Service, Indianapolis Operations

                                                   should revise DoD Financial Management
What We Did                                        Regulation, 7000.14-R, to be consistent with
We assessed whether Defense Finance and            U.S. Treasury Financial Manual (TFM) I
Accounting Service, Indianapolis Operations        4-7000 (Transmittal Letter 640), which
(DFAS Indianapolis) had internal controls to       requires cancellation of returned U.S.
ensure that DoD collections and returned           Treasury checks within 3 workdays of receipt.
checks were properly safeguarded and
accurately recorded. DFAS Indianapolis             The Director of DFAS Indianapolis should
processed 26,624 collections for $316.8            ensure that DFAS:
million in FY 2007 and 4,898 returned U.S.             deposits all collections within
Treasury checks for $43.5 million during the              U.S. Treasury timeframes;
period of October 6, 2006, through                     includes undeposited negotiable
February 29, 2008. We examined supporting                 instruments in the quarterly cash
documentation to determine when these                     verifications for Disbursing Station
collections were deposited and the location of            Symbol Number 5570;
the deposit. We also reviewed U.S. Treasury            deposits U.S. Treasury checks in a
checks returned to the Disbursing Operations              Federal Reserve Bank;
Directorate during FY 2007.                            improves and consolidates collection
                                                          functions and processing;
What We Found                                          fully implements the Paper Check
DFAS Indianapolis did not have adequate                   Conversion Over the Counter system for
internal controls to ensure that collections and          deposit of all collections; and
returned U.S. Treasury checks were properly            cancels returned U.S. Treasury checks
recorded and safeguarded. As a result, the                within 3 workdays.
Government unnecessarily incurred an
estimated $201,738 in interest costs on debt       Client Comments and Our
or other obligations. In addition, checks          Response
improperly returned to debtors totaled
                                                   Management comments from the Under
$7.5 million in FY 2007. Also, the lack of
                                                   Secretary of Defense (Comptroller)/DoD Chief
internal controls increased the risk that
                                                   Financial Officer and the Director,
collections and returned U.S. Treasury checks
                                                   Defense Finance and Accounting Service
could be lost or stolen. DFAS Indianapolis
                                                   were responsive to recommendations.
deposited U.S. Treasury checks into an
                                                   However, the Director did not comment on the
unauthorized deposit facility.
                                                   Potential Monetary Benefits. See Potential
What We Recommend                                  Monetary Benefits, Client Comments, Audit
                                                   Response for details. See the recommendations
The Under Secretary of Defense                     table on page ii.
(Comptroller)/DoD Chief Financial Officer

                                                   i
               Report No. D-2009-057 (Project No. D2007-D000FL-0119.001)
                                   February 27, 2009




Recommendations Table
Client                              Recommendations   No Additional
                                    Requiring Comment Comments Required
Under Secretary of Defense                            B.1.
(Comptroller)/DoD Chief Financial
Officer
Director, Defense Finance and                           A.1., A.2., A.3., A.4., A.5.a.,
Accounting Service                                      A.5.b., A.5.c., A.5.d., B.2.a.,
                                                        B.2.b., and B.2.c.




                                          ii
Table of Contents

Results in Brief                                                               i

Introduction                                                                   1

       Objectives                                                             1
       Background                                                             1
       Review of Internal Controls                                            2

Finding A. Recording and Safeguarding Collections                              3

       Potential Monetary Benefits, Client Comments, and Our Response         9
       Recommendations, Client Comments, and Our Response                     9

Finding B. Returned U.S. Treasury Checks                                      13

       Management Actions                                                     16
       Recommendations, Client Comments, and Our Response                     16

Appendices

       A. Scope and Methodology                                               19
              Prior Coverage                                                  20
       B. Statistical Sampling Methodology and Analysis                       21

Client Comments

       Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer
             Comments                                                         25
       Defense Finance and Accounting Service Comments                        27
Introduction
Objectives
The audit objective was to determine whether Defense Finance and Accounting Service,
Indianapolis Operations (DFAS Indianapolis) had internal controls to ensure that all
returned checks and collections were properly safeguarded and accurately recorded. See
Appendix A for a discussion of the scope and methodology and prior coverage.
Appendix B contains statistical sampling methodology and analysis.

Background
This is the second in a series of reports related to DFAS Indianapolis disbursing
operations. The first, Report No. D-2008-52, “Disbursing Operations Directorate at
Defense Finance and Accounting Service, Indianapolis Operations,” February 19, 2008,
discussed timeliness of Intragovernmental Payment and Collection System transactions,
adjustments to Intragovernmental Payment and Collection System suspense accounts, and
reconciliation of the “Statement of Differences-Deposits.” This report discusses the
processing of collections and returned checks.

DFAS Indianapolis
DFAS Indianapolis provides finance and accounting support to the Army and other
Defense agencies. The Disbursing Operations Directorate performs a full range of
disbursing operations for all organizations that receive departmental accounting support
from DFAS Indianapolis. Disbursing Operations Directorate accounting activities
include making disbursements, processing collections and making deposits, and
processing returned checks. The Accounts Receivable Directorate, Debt Claims
Branch 1-Army (Accounts Receivable Directorate-Army), and Accounts Receivable
Directorate, Debt Claims Branch 1-Other Defense Organizations (Accounts Receivable
Directorate-ODO), 1 also process collections and make deposits. In FY 2007, DFAS
Indianapolis processed 26,624 collections, totaling $316.8 million.

DFAS Indianapolis Collections Responsibilities
DFAS Indianapolis collects cash, money orders, and checks for payments for goods and
services received and to reimburse the Government for overpayments. The Disbursing
Operations and Accounts Receivable Directorates all receive mail containing collections.
The Accounts Receivable Directorate-Army receives mail containing its own collections,
as well as collections on behalf of Accounts Receivable Directorate-ODO.

The directorates separately and independently record each collection in a log, try to
identify the proper account to credit, prepare the deposit ticket, and then deposit the


1
 The Accounts Receivable Directorate, Debt Claims Branch 1-Army was formerly known as the
Directorate of Network Operations, and the Debt Claims Branch 1-Other Defense Organizations was
formerly known as the Defense Agency Financial Services Directorate.


                                                  1
collection in the Finance Center Federal Credit Union. After making the deposit, DFAS
Indianapolis records the collection in Standard Finance System Redesign 1.

DFAS Indianapolis Returned U.S. Treasury Check
Responsibilities
Disbursements made by the Disbursing Operations Directorate include payments to
vendors, civilians, and military members. Disbursements are made by electronic funds
transfer, cash, and check. The U.S. Postal Service returns undeliverable checks to the
Disbursing Operations Directorate. Also, payees sometimes return checks that they
believe they are not entitled to. Disbursing Operations Directorate procedures require
that returned checks be manually recorded in a log and entered into the DFAS Returned
Check and Bond System (RCB) upon receipt. The Disbursing Operations Directorate
uses the RCB to record and report the status of checks returned to DFAS Indianapolis.
The organization that initially authorized a payment is responsible for reviewing the
returned check and correcting the payee address in RCB. When the correct address can
be determined, the Disbursing Operations Directorate sends the check back to the payee.
If a correct address cannot be determined within 60 days after the end of the month that
the organization issues the check, the Disbursing Operations Directorate cancels the
check. 2

Review of Internal Controls
We determined that a material internal control weakness existed for DFAS Indianapolis
as defined by DoD Instruction 5010.40, “Managers’ Internal Control Program
Procedures,” January 4, 2006. DFAS Indianapolis did not have effective internal controls
over processing collections and safeguarding returned U.S. Treasury checks.
Implementing Recommendations A and B will improve collection processing and
improve safeguards over returned U.S. Treasury checks. We will provide a copy of this
report to the senior Army official responsible for internal controls in the Department of
the Army. The Accounts Receivable Directorate should revise its Risk Assessment and
Control documents to address the risks of processing negotiable instruments.




2
    For example, a check issued on November 15, the 60-day period begins on December 1.


                                                    2
Finding A. Recording and Safeguarding
Collections
DFAS Indianapolis did not have adequate controls to ensure that $316.8 million in
collections were properly recorded and safeguarded. Specifically, DFAS:

        did not deposit collections on time,

        returned collections to the sender rather than depositing and researching them,

        did not have collection records that provided an audit trail or allowed monitoring
         of deposit timeliness,

        did not perform complete cash verifications,

        deposited U.S. Treasury checks in a Treasury General Account depository instead
         of in a Federal Reserve Bank, and

        did not report its accountability for undeposited negotiable instruments.

DFAS Indianapolis did not enforce existing guidance on collection processing, nor did it
have effective processes for receiving and processing collections and making timely
deposits. As a result, in FY 2007, the Government unnecessarily incurred an estimated
$201,783 in interest on debt or other obligations; had $15.8 million in collections that
lacked deposit evidence; and improperly returned $7.5 million in checks to debtors. 3 The
risk that collections could be lost or stolen was increased. DFAS Indianapolis did not
comply with U.S. Treasury requirements by depositing U.S. Treasury checks into an
unauthorized deposit facility.

Depositing Collections
DFAS Indianapolis did not promptly deposit all collections. U.S. Treasury Financial
Manual (TFM) 6-8000 requires that Federal agencies deposit collections totaling $5,000
or more on the date of receipt, if received prior to the deposit cutoff time. Collections
received too late in the day to meet the deposit cutoff time are to be deposited on the
following business day. Collections totaling less than $5,000 may be accumulated and
deposited when the total reaches $5,000. However, DoD is required to make deposits by
Thursday of each week, regardless of the amount accumulated.

We reviewed three separate areas within DFAS Indianapolis that processed
$316.8 million in collections during FY 2007: Disbursing Operations Directorate,


3
  The $201,783 estimated interest cost is the sum of $187,422 in projected interest cost for the Accounts
Receivable Directorate-Army log, $8,184 actual interest costs for the Disbursing Operations Directorate
log, and $6,177 in actual interest cost from the Accounts Receivable Directorate-ODO log.


                                                     3
Accounts Receivable Directorate-Army, and Accounts Receivable Directorate-ODO.
Each of these areas maintained its own separate log to record collections received.

Disbursing Operations Directorate
       The Disbursing Operations Directorate collection log contained 6,622 collections
        totaling $28.5 million. We reviewed 3,146 collections, totaling $13.7 million, for
        which Disbursing Operations Directorate personnel had included deposit
        information in the collection log. Our analysis found that:

       2,861 collections, totaling $13.4 million, were deposited an average of 14 days
        after the U.S. Treasury definition of a timely deposit, and

       285 collections, totaling $290,797, were correctly deposited within U.S. Treasury
        time frames.

Accounts Receivable Directorate-Army
The Accounts Receivable Directorate-Army collection log contained 17,770 collections,
totaling $252.2 million. We selected a statistical sample of 328 collections from the
collection log (see Appendix B). We then reviewed supporting documentation that
identified when Accounts Receivable Directorate-Army deposited these 328 collections.
Based on our sample, we project that:

       15,677 collections (a projected $204.2 million) were deposited after the U.S.
        Treasury requirements for timely deposit, 4 and

       $2.7 million in actual collections were deposited within U.S. Treasury
        timeframes.

Accounts Receivable Directorate-ODO
The Accounts Receivable Directorate-ODO collection log contained 2,232 collections,
totaling $36.1 million. We reviewed supporting documentation for each collection to
determine the date of deposit. We found that:

       998 collections, totaling $15.4 million, were deposited an average of 3 days after
        the U.S. Treasury requirement for timely deposit, and

       1,234 collections, totaling $20.7 million, were deposited within U.S. Treasury
        time frames.




4
 The projection of the average days late for collections not deposited on time was between 5.6 and 8.06,
with a point estimate of 6.83.


                                                    4
Collections Processed by Multiple Areas
Because there were three collection-processing areas within DFAS Indianapolis, the
checks were transferred among these areas rather than being promptly deposited. In
addition, the processing areas used inconsistent standards. For example, the Disbursing
Operations Directorate recorded 6,622 collections totaling $28.5 million in the collection
log, and of these, 699 collections totaling $10.2 million also appeared on either the
Accounts Receivable Directorate-Army or the Accounts Receivable Directorate-ODO log
an average of 11.8 days later. Although the U.S. Treasury and DoD FMR require same-
day or next-day deposit for collections greater than $5,000, the Accounts Receivable
Directorate-Army procedures allowed up to 10 days after receipt to make deposits.
Transferring collections among multiple processing areas instead of depositing the
collections also increased the possibility for loss or theft of checks.

The U.S. Treasury designed its regulations on deposit of funds to reduce processing float.
Float is the average amount of time between the initial receipt of payments in an agency's
mailroom and the receipt of those funds by the depository. Timely deposit of collections
reduces float and increases the funds available for Government operations, which
decreases the funds that the Government must borrow. We used the average FY 2007
U.S. Treasury 1-Month Bill rate of 4.79 percent to estimate a total interest cost of
$201,783 to the Federal Government for deposits not made on time by the Disbursing
Operations Directorate, Accounts Receivable Directorate-Army, and Accounts
Receivable Directorate-ODO. Ensuring timely deposits also reduces the possibility of
loss or theft of checks.

Researching Collections
DFAS Indianapolis often returned checks to the sender rather than depositing them. We
identified 560 checks, totaling $7.5 million, which DFAS Indianapolis returned to the
sender rather than depositing DFAS Indianapolis attempts to identify the correct account
to credit prior to depositing a collection. However, DFAS Indianapolis was unable to
identify the proper account to credit for these 560 collections. Instead of depositing the
checks without further research, DFAS Indianapolis returned the checks to their senders,
along with a request for more information about why the sender sent the check. The DoD
FMR requires that the disbursing officer accept and account for any collection received,
even when the reason for payment cannot be determined. The disbursing officer should
account for such collections in F3875, Budget Clearing Account (Suspense). The
disbursing officer should ensure that lines in this suspense account are reclassified to the
correct line of accounting and properly reported in the accounting system within 60 days.
DFAS Indianapolis should deposit all collections upon receipt. If the disbursing officer
needs more information to determine the purpose of the payment, the disbursing officer
can provide a copy of the check to the sender.

Collection Logs
All three collection-processing areas recorded the date the collection was received in their
collection logs. Only the Disbursing Operations Directorate log included deposit ticket
and deposit date information for some collections, but this log did not contain deposit


                                             5
information for all of them. Because the Accounts Receivable Directorate-Army log did
not contain deposit ticket information, DFAS Indianapolis could not provide information
for 25 collections, totaling $5 million, from our statistical sample. Based on the sample,
we estimate that there is no audit trail for 1,431 collections, totaling $15.8 million. As a
result, we were unable to verify if or when these collections were deposited. A complete
audit trail for all collections is required to ensure accountability. Deposit information in
the collections logs is necessary for a complete audit trail and for DFAS Indianapolis to
ensure that collections are properly deposited and not lost or stolen.

Cash Verifications
DoD FMR Volume 5, Chapter 3, October 2006, requires quarterly cash verifications as
part of safeguarding public funds. A quarterly cash verification is a physical count of
cash, negotiable instruments (checks and money orders), and other assets that comprise a
disbursing officer’s total accountability. Procedures for this include verifying that the
disbursing officer is depositing cash, checks, and money orders on time. The Disbursing
Operations Directorate provided us with cash verification reports from March 2007
through March 2008, but the reports were incomplete. They did not include a review of
negotiable instruments in the Accounts Receivable Directorate-Army or the Accounts
Receivable Directorate-ODO. These instruments are part of the accountability of the
Disbursing Officer for Disbursing Station Symbol Number 5570 of the Disbursing
Operations Directorate. The Disbursing Operations Directorate should ensure complete
cash verification reports, which includes reviewing all negotiable instruments.

U.S. Treasury Check Deposits
DFAS Indianapolis deposited 340 U.S. Treasury checks totaling $25.6 million in an
unauthorized deposit facility instead of in a Federal Reserve Bank (FRB). Agencies write
U.S. Treasury checks to DFAS Indianapolis as reimbursements, to return unused funds,
and to make restitution payments. U.S. Treasury TFM 5-2000 and the DoD FMR,
volume 5, chapter 5, require that DoD deposit checks that are drawn on the U.S.
Treasury in a FRB. There were 830 U.S. Treasury checks, totaling $27.2 million, in the
three collection logs. We obtained deposit documentation for 340 checks, totaling
$25.6 million, and determined that all of them were deposited in the Finance Center
Federal Credit Union.

      The Accounts Receivable Directorate-ODO deposited 244 checks, totaling $14.1
       million.

      The Disbursing Operations Directorate deposited 71 checks, totaling $9.3 million.

      The Accounts Receivable Directorate-Army deposited 25 checks, totaling $2.2
       million.

The Finance Center Federal Credit Union is a Treasury General Account depository.
Treasury General Account depositories may be used to deposit collections, but Federal
agencies may not use Treasury General Account depositories for U.S. Treasury checks.



                                             6
U.S. Treasury regulations state that, without exception, agencies must deposit all
U.S. Treasury checks into the nearest FRB. DoD FMR reiterates this requirement.

The standard operating procedures require the Accounts Receivable Directorate-ODO to
deposit checks drawn on U.S. financial institutions in the Finance Center Federal Credit
Union. This is not consistent with U.S. Treasury requirements. In addition, Disbursing
Operations Directorate personnel told us that they started depositing U.S. Treasury
checks into the Finance Center Federal Credit Union because it took the FRB 2 to 3
weeks to post deposits into CA$HLINK II. 5 Accounts Receivable Directorate-Army
personnel said that they had previously sent U.S. Treasury checks to the FRB by
registered mail but stopped because the FRB lost some checks. This required a stop-pay
order to be issued, and the customer had to reissue the check. In addition, they stated that
the FRB was sometimes slow in recording deposits in CA$HLINK II. Disbursing
Operations Directorate can correct these issues by using Paper Check Conversion Over
the Counter (PCC OTC), which will be discussed.

Accountability for Negotiable Instruments
DoD FMR volume 5, chapter 19, requires that a disbursing officer report undeposited
negotiable instruments, such as money orders and checks, on a Statement of
Accountability. We reviewed Statements of Accountability for Disbursing Station
Symbol Number 5570 from the Disbursing Operations Directorate. We found that the
Disbursing Operations Directorate did not report undeposited negotiable instruments.
Properly reporting undeposited negotiable instruments ensures accountability for these
instruments and improves the accuracy of the Statement of Accountability. The
Disbursing Operations Directorate should report all undeposited negotiable instruments
on its Statement of Accountability.

Improve the Collection Process
DFAS Indianapolis did not follow the procedures in the U.S. Treasury Financial Manual
and DoD FMR. DFAS Indianapolis currently receives, logs, and processes collections in
three areas. It often transfers collections among these areas for resolution or returns
collections to the senders rather than depositing and then researching them. As a result,
DFAS Indianapolis processes were complicated and contributed to the internal control
weaknesses discussed in this finding. We were not able to verify that all collections were
received and that accountability was maintained. DFAS Indianapolis processes for
receiving and processing collections need to be improved.

DFAS Indianapolis should consolidate the receipt and deposit of all collections in one
secure location. The Disbursing Operations Directorate already has the required vault
area. The Disbursing Operations Directorate should also maintain only one consolidated
collection log that contains the receipt and deposit dates for the collections and facilitates



5
  CA$HLINK II is an electronic cash concentration, financial information, and data warehouse system used
to manage the collection of U.S. Government funds and to provide deposit information to Federal agencies.


                                                   7
tracking the collections to actual deposits. In addition, DFAS Indianapolis should use the
PCC OTC system for deposit of all collections drawn on U.S. financial institutions.

Paper Check Conversion Over the Counter
PCC OTC speeds the deposit and collection process. Since November 2005, DFAS
Columbus has used PCC OTC to process checks received from vendors. PCC OTC
converts paper checks into electronic funds and transmits them to the FRB of Cleveland.
The FRB electronically debits the check-writer’s account and credits the agency’s
account in CA$HLINK II. CA$HLINK II prepares deposit tickets and debit vouchers,
and these are available the next business day. PCC OTC can also deposit U.S. Treasury
checks into an FRB. The only expense to Federal agencies is for the check-scanning
equipment.

Although DFAS Indianapolis Disbursing Operations Directorate had used PCC OTC to
deposit returned check cancellations, it was never used to deposit collections. However,
DFAS Indianapolis Disbursing Operations Directorate stopped using PCC OTC when the
equipment broke.

DFAS Lean 6
DFAS Indianapolis has a Lean 6 team as part of its continuous improvement process.
Lean 6 is an approach that DFAS uses to deliver the best value to its customers. 6 Lean 6
analyzes business operations to reduce process time to create uniform outputs and to
improve quality. Improving the DFAS collection process appears to be an excellent
candidate for Lean 6 analysis. By improving its collection process and its internal
controls, DFAS Indianapolis would gain process efficiencies for the Government that
could result in monetary benefits.

Improving the collection process would:

       increase the efficiency and effectiveness of personnel;

       reduce the risk of lost or stolen checks;

       reduce the estimated interest cost by $201,783 annually, 7 or $1.2 million during
        the Future Years Defense Program, 8 paid by the Federal Government; and

       increase collections by properly depositing, recording, and researching them.



6
  DFAS Lean 6 combines Lean process improvement and Six Sigma process variation reduction
methodologies.
7
  We could not trace collections to specific appropriations because our review relates to DFAS-
Indianapolis cash management. Collections are included in the Fund Balance with Treasury, the asset
account used by Treasury to record all funds of the Federal Government.
8
  The Future Years Defense Program is the program and financial plan for the Department of Defense as
approved by the Secretary of Defense.


                                                   8
Potential Monetary Benefits, Client Comments, and Our
Response
Client Comments. The Director, DFAS Indianapolis provided comments to the draft
report on November 14, 2008. The Director’s comments did not address the potential
monetary benefits.

Audit Response. The Director, DFAS Indianapolis should provide comments on the
potential monetary benefits addressed in this report. The comments should indicate
agreement or disagreement with the amount or any portion of the amount. The report
identified $1.2 million interest that the Federal government could avoid during the Future
Years Defense Program.

Recommendations, Client Comments, and Our
Response
A. We recommend that the Director, Defense Finance and Accounting Service,
Indianapolis Operations:

       1. Deposit all collections within U.S. Treasury timeframes.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. The Director initiated a Lean6 Blackbelt project in November 2008
to determine the best method for resolving this issue.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.

       2. Report all undeposited negotiable instruments in its cash verification
reports.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. The Internal Control Cash Verification team will begin including all
collections in the Cash Verification report when the Lean6 project is completed.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.

       3. Deposit U.S. Treasury checks in a Federal Reserve Bank.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. The Disbursing Directorate will deposit all U.S. Treasury checks
from Agency Location Code 5570 directly to the Federal Reserve Bank.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.


                                            9
.
      4. Ensure that the cash verification reports for Disbursing Station Symbol
Number 5570 are complete by reporting undeposited negotiable instruments on the
Statement of Accountability.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. Undeposited negotiable instruments will be included on the
Statement of Accountability and verified by the Internal Control Cash Verification Team
in the Cash Verification report.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.

       5. Improve the collection process.

            a. Consolidate the collection process into a single, secured location in
the DFAS Indianapolis Disbursing Operations Directorate.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations did not agree with the recommendation. The Director proposed an alternative
approach that included locating the Collections team with the Accounts Receivable Case
Management/Mailroom personnel. Accounts Receivable will ensure security for
negotiable instruments, in compliance with DoD FMR volume 5, chapter 3, section 0303.
Additionally, Accounts Receivable will update its Risk Assessment and Control
documents accordingly.

Our Response. The responses of the Director, Defense Finance and Accounting Service,
Indianapolis Operations are responsive to the intent of the recommendation.

              b. Maintain a consolidated collection log that contains the date each
collection was received and deposited.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. The Director initiated a Lean6 Blackbelt project in November 2008
to determine the best method for resolving this issue.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.

             c. Perform a daily review of the consolidated collection log to ensure
accuracy and that deposits are being made on time.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. The Director initiated a Lean6 Blackbelt project in November 2008
to determine the best method for resolving this issue.




                                            10
Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.

               d. Implement the Paper Check Conversion Over the Counter system
for deposit of all collections drawn on U.S. financial institutions.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed, with comment. The Disbursing Operations implemented PCC OTC
in April 2008. Disbursing will continue to using PCC OTC as recommended by the
DoD OIG. However, there will continue to be situations where disbursing will make
deposits at the Federal Center Federal Credit Union, such as when cash is received. The
use of the credit union will be on an exception-basis. Accounts Receivable will need to
obtain the PCC OTC equipment and software.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.




                                          11
12
Finding B. Returned U.S. Treasury Checks
DFAS Indianapolis, Disbursing Operations Directorate controls were not adequate to
record and safeguard returned U.S. Treasury checks. Specifically:

        returned U.S. Treasury checks were not canceled on time,

        inconsistencies existed between the Disbursing Operations Directorate returned
         check log and the Returned Check and Bond System, and

        the inventory of returned checks was not consistent with the returned checks
         identified in the Returned Check and Bond System.

These conditions existed because the DoD FMR and DFAS Indianapolis guidance were
not consistent with U.S. Treasury regulations, and because DFAS Indianapolis was not
adequately reconciling and verifying U.S. Treasury checks and check records. As a
result, returned U.S. Treasury checks were at risk for being lost or stolen.

Processing Returned U.S. Treasury Checks
The Disbursing Operations Directorate did not cancel returned U.S. Treasury checks on
time. U.S. Treasury Financial Manual (TFM) I 4-7000 (Transmittal Letter 640) requires
that returned, held, 9 undeliverable, or mutilated U.S. Treasury checks that are in the
possession of a non-Treasury disbursing office be canceled within 3 workdays of receipt
by the disbursing office. The Disbursing Operations Directorate received 4,898 returned
U.S. Treasury checks totaling $43.5 million from October 6, 2006, through February 29,
2008, that were entered into the Returned Check and Bond System (RCB). 10 Of these,
Disbursing Operations Directorate did not cancel or remail 3,602 totaling $11.7 million
within 3 workdays of receipt. In addition, Disbursing Operations Directorate did not
cancel or remail 176 returned U.S. Treasury checks totaling $825,689 within 60 days of
the end of month of check-issue. Table 1 shows the results of our review of the
October 6, 2006, through February 29, 2008, RCB data.

         Table 1. RCB data for October 6, 2006 through February 29, 2008
Returned checks not canceled on time                3,602        $11,732,313
Returned checks canceled on time                    1,296        $31,755,751
Total returned U.S. Treasury checks                 4,898        $43,488,064

The “Returned Checks and Bonds Open Cases Aging Report” runs at the close of
business each week. This report provides point-in-time information for returned checks
that the Disbursing Operations Directorate has not canceled or remailed. It also includes


9
  A held check is a check not released by an agency that has statutory disbursing authority at the request of
the agency that submitted the payment request.
10
   The Disbursing Operations Directorate uses RCB for returned checks only.


                                                     13
the age of the returned checks. We obtained this report for five different dates during
calendar year 2007 and examined the ages of the U.S. Treasury checks. These five
reports showed that the majority of returned checks on hand at the close of business each
week were not canceled within 3 workdays of receipt. Table 2 summarizes the checks in
these five reports.

                          Table 2. Open Cases Aging Report
                                                                       Returned Checks
                                             Uncanceled Returned        Older Than 60
                        Total Returned       Checks More Than 3        Days After Month
                            Checks             Workdays Old                 of Issue
March 9, 2007           189    $568,206       154       $548,444         0            $0
August 10, 2007         345    $507,734       319       $495,330         0            $0
October 26, 2007        350 $1,290,161        282     $1,215,030        55       $39,906
November 2, 2007        393 $1,273,307        329     $1,220,408        61       $50,861
November 16, 2007       347    $529,225       316       $322,771        86       $64,142

The DoD FMR and Disbursing Operations Directorate guidance required that returned
U.S. Treasury checks be canceled within 60 days after the end of the month of issue. The
60-day guidance in the DoD FMR is not consistent with the Treasury Financial Manual,
which requires Federal organizations to cancel returned U.S. Treasury checks within 3
workdays of receipt. Returned U.S. Treasury checks that are not canceled on time are
also at increased risk for loss or theft. DoD guidance on processing returned
U.S. Treasury checks should be consistent with U.S. Treasury requirements.

Reconciliations and Cash Verifications
The Disbursing Operations Directorate Procedures Manual requires personnel to
reconcile the returned checks inventory to returned checks identified in RCB on a
monthly basis. The Disbursing Operations Directorate is not performing adequate
reconciliations. Further, the quarterly cash verification mandated by the DoD FMR must
include an inventory of undelivered checks to ensure that none is missing, none exceeds
the time limit for holding, and all are properly safeguarded. The cash verification reports
provided to us by the Disbursing Operations Directorate did not contain a complete
inventory of returned checks. The Disbursing Operations Directorate should complete an
inventory of returned checks and report it in the cash verification report each quarter.

Check Log
The Disbursing Operations Directorate used a log to record returned U.S. Treasury
checks when they were received. The Disbursing Operations Directorate then gave the
returned checks to an accounting technician for entry into RCB and to remail or cancel
the checks. Returned checks were stored in a secure filing cabinet. We compared the
returned U.S. Treasury checks listed on the October 6, 2006, through November 27,
2007, Disbursing Operations Directorate returned check log to the checks that Disbursing
Operations Directorate recorded in the RCB. The Disbursing Operations Directorate



                                            14
returned check log contained 4,179 checks totaling $41.9 million for this period. Our
analysis found that:

      11 returned checks totaling $75,568 were in the Disbursing Operations
       Directorate returned check log but did not appear in RCB, and

      54 returned checks totaling $608,294 were input into RCB but did not appear in
       the Disbursing Operations returned check log.

Returned Check Inventory
We also compared the uncanceled returned checks inventory, which was stored in a filing
cabinet, to the uncanceled returned checks identified on the November 16, 2007, RCB
“Returned Checks and Bonds Open Cases Aging Report.” Our comparison determined
that:

      two returned uncanceled checks totaling $309.08 in the filing cabinet had not
       been input into RCB, and

      five returned checks totaling $4,966.58 that had been input into RCB were not in
       the filing cabinet. DFAS Indianapolis personnel incorrectly recorded three of the
       checks in the RCB, returned and canceled one check, and returned one check.

Disbursing Operations Directorate personnel used a returned check log to record returned
checks at the time they were received. However, they did not perform an effective
comparison between the returned checks entered into the log and the checks later entered
into RCB. Further, they did not fully compare uncanceled returned checks inventory to
the RCB “Returned Checks and Bonds Open Cases Aging Report.” To ensure that
Disbursing Operations Directorate actually enters returned checks that arrive in the
building into RCB for processing and control, two processes should occur:

      compare the Disbursing Operations Directorate returned check log to the checks
       actually entered into RCB, and

      compare the uncanceled returned checks inventory to the uncanceled returned
       checks identified in RCB.

Conclusion
Disbursing Operations Directorate should control returned U.S. Treasury checks similarly
to cash. When Disbursing Operations Directorate does not cancel returned checks on
time, it increases the possibility that the check can be lost or stolen. The Disbursing
Operations Directorate had uncanceled returned checks in its possession for as long as 5
months. These included returned checks that the payees were unaware they were due.
These types of checks are at an increased risk for improper negotiation. Not reconciling
the returned checks recorded in the returned check log with the RCB and not comparing
the returned checks inventory with RCB increases the risk that returned checks will be



                                           15
lost or stolen. Timely cancellation of returned checks would reduce the number of
checks in the inventory and allow for easier reconciliations between returned checks in
inventory with the RCB records.

Management Actions
The DoD FMR is not consistent with U.S. Treasury regulations. DoD FMR guidance
requires cancellation of returned U.S. Treasury checks within 60 days after the end of the
month of issue. As stated in the finding, U.S. Treasury regulations require that the
disbursing office cancel returned, held, undeliverable, or mutilated U.S. Treasury checks
within 3 workdays of receipt. In October 2007, we discussed this discrepancy with the
DFAS Policy and Performance Management Directorate. In October 2008, the Under
Secretary of Defense (Comptroller)/DoD Chief Financial Officer published a change to
DoD FMR, volume 5, chapter 8 updating the chapter to reflect the requirement of the
Treasury Financial Manual, Part I, Chapter 4, Section 7030.

Recommendations, Client Comments, and Our
Response
B.1. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer revise DoD Financial Management Regulation, DoD Regulation
7000.14-R, to comply with U.S. Treasury I TFM 4-7000 (Transmittal Letter 640)
and require cancellation of returned U.S. Treasury checks within 3 workdays of
receipt.

Client Comments. The Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer agreed. The DoD FMR volume 5, chapter 8, “Check Distribution, Disposition,
and Cancellation,” was revised and posted to the Office of the Undersecretary of Defense
(Comptroller)/DoD Chief Financial Officer Web site on October 15, 2008, to comply
with the requirements of the Treasury Financial Manual, Part 1, Chapter 4, Section 7000,
that available checks be canceled within 3 workdays of receipt.

Our Response. We consider the comments of the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer to be responsive.


B.2. We recommend that the Director, Defense Finance and Accounting Service,
Indianapolis Operations:

       a. Cancel returned U.S. Treasury checks within 3 workdays of receipt as
required by U.S. Treasury guidance.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. Disbursing Operations Directorate is canceling returned U.S.
Treasury checks within 3 workdays of receipt as required by U.S. Treasury guidance.




                                            16
Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.

        b. Compare the Defense Finance and Accounting Service, Indianapolis
Operations returned check log to the returned checks entered into Returned Check
and Bond System, compare the returned checks inventory to the returned checks
identified in each weekly Returned Check and Bond System “Returned Checks and
Bonds Open Cases Aging Report,” and reconcile any discrepancies.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. Verifications will begin immediately.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.

      c. Inventory and report all returned checks in the cash verification reports.

Client Comments. The Director, Defense Finance and Accounting Service, Indianapolis
Operations agreed. Each cash verification will include a 100-percent inventory of
returned checks. Any discrepancies will be noted in the report.

Our Response. We consider the comments of the Director, Defense Finance and
Accounting Service, Indianapolis Operations, to be responsive.




                                        17
18
Appendix A. Scope and Methodology
We conducted this performance audit from October 2007 through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the Disbursing Operations Directorate, Accounts Receivable Directorate-
Army, and Accounts Receivable Directorate-ODO processes for receiving, controlling,
and processing collections at DFAS Indianapolis. We obtained and reviewed the
collection logs used by these three areas to record collections received during FY 2007.
We used the collection logs and documentation from Electronic Data Access, 1 OnBase
Information System (OBIS), 2 and the U.S. Treasury CA$HLINK II 3 to identify when
collections on the Disbursing Operations Directorate and Accounts Receivable
Directorate-ODO collection logs were deposited and calculated how long it took DFAS
Indianapolis to deposit them. The Quantitative Methods Directorate (QMD), Office of
the Deputy Inspector General for Auditing, provided a statistical sample of collections
from the Accounts Receivable Directorate-Army collections log. We obtained the
deposit information for the collections from Electronic Data Access, OBIS, and
CA$HLINK II. See Appendix B for a discussion of the methodology used to select the
sampled collections. We also conducted interviews with DFAS Indianapolis personnel
responsible for processing collections.

We reviewed the DFAS Indianapolis, Disbursing Operations Directorate process for
returned U.S. Treasury checks. We obtained and reviewed the FY 2007 log used by the
Disbursing Operations Directorate to record returned U.S. Treasury checks, as well as a
database of all returned U.S. Treasury checks entered into Returned Checks and Bonds
System (RCB) from October 6, 2006, to February 29, 2008. We performed a count of the
returned checks in the possession of the Disbursing Operations Directorate on
November 16, 2007. We conducted interviews with DFAS Indianapolis personnel
responsible for processing returned U.S. Treasury checks.

Use of Computer-Processed Data
We used computer-processed data obtained from Electronic Data Access, the
U.S. Treasury CA$HLINK II, OBIS, and RCB to perform this audit. We examined
returned U.S. Treasury checks in the possession of the Disbursing Operations Directorate
and recorded in the returned check log to verify the accuracy of the data in RCB. As
discussed in Finding B, we found some discrepancies in the RCB data, which we


1
  The Electronic Data Access is a Web-based system that provides secure online access, storage, and
retrieval of vouchers.
2
  The OnBase Information System provides integrated document and records management.
3
  CA$HLINK II provides Federal agencies with information to verify deposits.


                                                   19
addressed in the report. Our results were not affected by not performing a complete
reliability assessment of Electronic Data Access, CA$HLINK II, OBIS, or RCB.

Use of Technical Assistance
Office of the Deputy Inspector General for Auditing, Quantitative Methods Directorate,
provided technical assistance throughout the sample selection and projection process.
QMD provided a sample of collections from the Accounts Receivable Directorate-Army
collection log to test for deposit timeliness. QMD also provided a projection of untimely
deposits based on the results of the completed sample. See Appendix B for a detailed
description of the assistance provided by QMD.

Prior Coverage
During the last 5 years, the U.S. Army Audit Agency (USAAA) has issued the following
three reports discussing the DFAS Indianapolis Disbursing Operations Directorate.
USAAA reports are available on a Web site that is restricted to military domains and
GAO. To access these reports go to www.aaa.army.mil/reports.htm.

USAAA Report No. A-2006-0186-ALR, “Follow-up Audit of Disbursing Stations
Expenditure Operations: DoD Disbursing Station 5570, Accounting Services, Army,”
August 22, 2006

USAAA Report No. A-2005-0104-ALW, “Disbursing Station Expenditure Operations:
DoD Disbursing Station Number 5570,” February 14, 2005

USAAA Report No. A-2004-0006-FFG, “General Fund Follow-up Issues,”
October 29, 2003




                                           20
21
Appendix B. Statistical Sampling
Methodology and Analysis
Quantitative Plan
Objective. We used statistical sampling to estimate the number of collections deposited
on time, not deposited on time, and collections that DFAS Indianapolis was unable to
provide supporting documentation for. We also estimated the dollar amount associated
with each of the measures.

Population. The population consisted of 17,770 collections between $0.04 and
$11,181,121 with a total value of $252,177,330. There were 23 collections with values
greater than or equal to $1 million.

Measures. The measures were the dollar value and the number of collections deposited
on time, not deposited on time, and collections that DFAS Indianapolis was unable to
provide supporting documentation for.

Parameters. We used a 95-percent confidence level for the statistical estimate.

Sample Plan
We used a stratified sample design by dollar collections and kept all the records greater
than or equal to $1 million in the census stratum. We determined the appropriate sample
sizes for each stratum based on our “what-if analysis” and our professional judgment.
We drew the samples without replacement from each stratum using Statistical Analysis
System programming tools and provided the selected items to the audit team. A total of
328 collections were selected for audit, as shown in the table below.

                   Table B-1. Population and Sample Breakdown
                      Stratum
    Stratum          Population         Stratum        Stratum                Stratum
  Collections           Size        Population Sum    Sample Size           Sample Sum
≥ $1M(census)              23         $ 46,314,070        23                $46,314,070
≥ 50K to < $1M            912          167,784,183       140                 22,425,370
≥ 1K to < $50K          4,519           33,879,163        90                    524,670
      < 1K             12,316            4,199,915        75                     23,662
     Total             17,770         $252,177,331       328                $69,287,772




                                           22
STATISTICAL PROJECTIONS AND INTERPRETATION
The planned analysis included making projections of the number and the dollar value of
each type of error. We projected the results of the sample using the stratified sampling
design.

The results for these projections have been calculated at the 95-percent confidence level
and are reported below: 

                          Table B-2. Collections Deposited on Time
                                Lower                 Point                            Upper
                                Bound               Estimate                           Bound
Dollar Value                   $570,178            $2,653,531                        $4,736,884

Based on the sample results, we project at the 95-percent confidence level that the dollar
value of collections deposited on time was between $570,178 and $4,736,884, with the
point estimate of $2,653,531.

                  Table B-3. Collections Not Deposited on Time
                          Lower                 Point                                  Upper
                          Bound                Estimate                                Bound
Rate                         81.74%               88.22%                                 94.70%
Number                        14,524               15,677                                 16,829
Dollar Value           $183,664,939          $204,172,498                           $224,680,056
Average Days Late               5.60                 6.83                                   8.06


Based on the sample results, we project at the 95-percent confidence level that the
number of collections not deposited on time was between 14,524 and 16,829, with the
point estimate of 15,677. The corresponding projection for dollar value of collections not
deposited on time was between $183,664,939 and $224,680,056, with a point estimate of
$204,172,498. The corresponding projection of the average days late for collections not
deposited on time was between 5.60 and 8.06, with the point estimate of 6.83.





 The formulae used in the projections are derived from the basic formulae given in “Sampling Techniques”
by William G. Cochran, 3rd edition, pp. 56-58, 91-95, and 107-108.


                                                  23
 Table B-4. DFAS Unable to Provide Documentation on Whether Collection Was
                         Deposited On Time or Not
                        Lower               Point               Upper
                        Bound             Estimate              Bound
Rate                       2.39%               8.05%              13.71%
Number                        425               1,431               2,436
Dollar Value          $8,001,583         $15,803,203         $23,604,823

Based on the sample results, we project at the 95-percent confidence level that the
number of collections DFAS was unable to provide documentation for that would enable
us to determine whether they were deposited in a timely manner was between 425 and
2,436, with the point estimate of 1,431. The corresponding projection for dollar value of
collections was between $8,001,583 and $23,604,823, with a point estimate of
$15,803,203.

Table B-5. Interest Cost to the Government for Collections Not Deposited on Time
                           Lower                Point                Upper
                           Bound              Estimate               Bound
Dollar Value              $159,783            $187,421             $215,060

Based on the sample results, we project at the 95-percent confidence level that the
interest cost to the Government for collections not deposited on time was between
$159,783 and $215,060, with the point estimate of $187,421.




                                            24
25
26
27
28
29
30
